<html>
<title> - UNITED STATES NAVAL STATION GUANTANAMO BAY PRESERVATION ACT; AND EXPRESSING CONCERN REGARDING PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA, INCLUDING FROM LARGE NUMBERS OF FALUN GONG PRACTITIONERS AND MEMBERS OF OTHER RELIGIOUS AND ETHNIC MINORITY GROUPS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









   UNITED STATES NAVAL STATION GUANTANAMO BAY PRESERVATION ACT; AND 
    EXPRESSING CONCERN REGARDING PERSISTENT AND CREDIBLE REPORTS OF 
   SYSTEMATIC, STATE	SANCTIONED ORGAN HARVESTING FROM NON	CONSENTING 
 PRISONERS OF CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA, INCLUDING 
  FROM LARGE NUMBERS OF FALUN GONG PRACTITIONERS AND MEMBERS OF OTHER 
                  RELIGIOUS AND ETHNIC MINORITY GROUPS

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                       H.R. 4678 and H. Res. 343

                               __________

                             MARCH 16, 2016

                               __________

                           Serial No. 114-151

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-471 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 4678, To prohibit modification, abrogation, abandonment, or 
  other related actions with respect to United States 
  jurisdiction and control over United States Naval Station, 
  Guantanamo Bay, Cuba, without congressional action.............     2
H. Res. 343, Expressing concern regarding persistent and credible 
  reports of systematic, state-sanctioned organ harvesting from 
  non-consenting prisoners of conscience in the People's Republic 
  of China, including from large numbers of Falun Gong 
  practitioners and members of other religious and ethnic 
  minority groups................................................    21
  Amendment in the nature of a substitute to H. Res. 343 offered 
    by the Honorable Ileana Ros-Lehtinen.........................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    38
Markup minutes...................................................    39
Markup summary...................................................    41
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    42
 
   UNITED STATES NAVAL STATION GUANTANAMO BAY PRESERVATION ACT; AND 
    EXPRESSING CONCERN REGARDING PERSISTENT AND CREDIBLE REPORTS OF 
   SYSTEMATIC, STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING 
 PRISONERS OF CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA, INCLUDING 
  FROM LARGE NUMBERS OF FALUN GONG PRACTITIONERS AND MEMBERS OF OTHER 
                  RELIGIOUS AND ETHNIC MINORITY GROUPS

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. Pursuant 
to notice, we meet today to mark up two measures, and without 
objection, all members may have 5 days to submit statements or 
extraneous materials on either measure.
    We are going to begin with H.R. 4678, the United States 
Naval Station Guantanamo Bay Preservation Act.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Chairman Royce. Without objection, it is considered read 
and it is open for amendment at any point. And after 
recognizing myself and the ranking member, I will be pleased to 
recognize any member seeking recognition to speak.
    I am pleased to recognize myself on this measure, and to be 
clear: This measure is not a Guantanamo detention facility 
bill. This bill, the United States Naval Station Guantanamo Bay 
Preservation Act, is about asserting Congress' longstanding 
constitutional and legal authority to determine the future of 
this U.S. military base. Senior military officers continue to 
view this as ``indispensable.'' This base is important to all 
elements of our national security, including humanitarian 
operations. Frequently we run operations out of here and Haiti 
and throughout the Caribbean. It saves lives on a regular 
basis.
    This bill states that no action may be taken to impair U.S. 
``jurisdiction and control'' over the base without affirmative 
congressional action--that would be either a new statute or a 
treaty concluded with Senate consent. Naval Station Guantanamo 
Bay is not a typical basing situation and U.S. control is not 
premised on a treaty here. Its history is wholly unique and it 
has its roots in acts of the Congress.
    In reviewing that history, it is worth recalling several of 
the express powers granted to Congress by the Constitution. All 
right, so Congress' powers are the power to provide for the 
common defense of the United States, the power to provide and 
maintain a Navy, the power to declare war, and the power to 
dispose of and make rules regarding territory and other 
property belonging to the United States.
    Cuba became an American protectorate after the U.S. 
prevailed in the Spanish-American War, which Congress had 
declared in 1898. In 1901, Congress rightly granted the 
President conditional authority to return control and 
governance of the island to the people of Cuba subject to the 
express requirement of securing U.S. naval basing rights there.
    When the President signed the 1903 Guantanamo Lease--the 
agreements under which the U.S. continues to exercise complete 
``jurisdiction and control'' over the base--the President 
specifically cited that 1901 Act of Congress as providing the 
President's authority to do so.
    The last Treaty of Relations between the U.S. and Cuba did 
not nullify, replace, or change the 1903 lease agreements, but 
noted that they ``shall continue in effect'' until the U.S. and 
Cuba agree to modify them.
    This means that any executive attempt to impair the United 
States' ``jurisdiction and control'' over Naval Station 
Guantanamo Bay without congressional authority would illegally 
nullify the 1901 A6ct of Congress and that would infringe on 
Congress' exercise of its express constitutional powers.
    Some say giving up Guantanamo isn't in the cards. Why 
should we worry? The Assistant Secretary of State for 
Legislative Affairs has recently written, stating that ``the 
United States has no plans to alter any of the arrangements 
regarding the base.''
    But saying that you ``have no plans'' to do something is 
not the same as saying that you will not do something. As we 
have seen in any number of prior situations--whether it be 
unfulfilled pledges of consultation with Congress prior to any 
Cuba policy change, for example, or the 11th hour lifting of 
missile restrictions as part of the Iran nuclear deal--plans 
can change very quickly. Plans can change for the worse with no 
prior warning to Congress.
    And we should be concerned about the next administration's 
plans. This bill is about protecting congressional prerogative 
during this administration and the next and the next.
    Congress needs to make clear its role in any decision to 
relinquish U.S. Naval Station Guantanamo Bay, which remains 
indispensable to our nation's defense and our support for 
regional stability. So this bill, H.R. 4678, does this. It 
deserves our support.
    I will now go to the ranking member, Mr. Eliot Engel of New 
York, for his opening statement.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
all your courtesies, as usual, but I must respectfully oppose 
this measure today, the U.S. Naval Station Guantanamo Bay 
Preservation Act, and the reason is in my view the legislation 
simply isn't necessary. The Guantanamo detention facility is 
always a political hot button, but I don't think anyone 
disputes that our naval station at Guantanamo Bay serves a 
number of worthy national security purposes.
    For example, after the devastating earthquake in Haiti in 
2010, the base was a critical logistical hub for our response. 
So I asked if the President, if the administration, had any 
plans to return the naval station to the Cuban Government. I 
received a response this week from the State Department that 
reads, and I quote, ``The Administration has no plans to alter 
the existing lease treaty, payments, and other arrangements 
with Cuba related to the Guantanamo Bay Naval Station.''
    And the chairman did point out that we got this letter from 
Julia Frifield, who is the Assistant Secretary of Legislative 
Affairs of the United States Department of State. So I would 
ask unanimous consent that her letter appear in the record.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman. The letter goes on to 
explain that the base will continue to serve an important role 
for the United States, even after the detention facility 
closes, including support of<greek-l>, quote, deg. ``U.S. Coast 
Guard and other agency counter-drug and migrant interdiction 
activities.''
    So let me say that this bill won't become law, obviously 
the President is opposed to it. But, I do think that again we 
should continue to work together on this issue at Guantanamo 
because it does serve a number of key national security 
purposes and will continue to do so in the years ahead.
    So thank you, Mr. Chairman. I yield back.
    Chairman Royce. I thank the gentleman for yielding back, 
and Congresswoman Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I would 
like to offer my full support for your bill, H.R. 4678, of 
which I am proud to be an original cosponsor. This bill would 
ensure that the Obama administration cannot close or abandon 
the Naval Station of Guantanamo Bay without congressional 
action.
    Since the President's misguided decision to normalize 
relations with Cuba in 2014, I have feared that President Obama 
would try to relinquish control of Gitmo. Just as it has done 
with authoritarian regimes around the world, the Obama 
administration has already made concession after concession to 
the Castro dictatorship without anything positive to show in 
return. And given the fact that the President is willing to 
concede to any of Castro's demands, I would not be surprised if 
next on his checklist will be the handing over of Gitmo to an 
avowed enemy of the United States.
    The strategic location of the naval station is of extreme 
importance and it plays a pivotal role for our military 
capabilities in the region. We must not allow any President to 
circumvent Congress and manipulate the law in order to give up 
control of Gitmo.
    And I thank you, Chairman Royce, for bringing up this 
measure. I think it is a very important statement. Thank you, 
sir.
    Chairman Royce. If I could, I am going to recognize myself 
briefly so I can explain my thinking on this. One of the 
reasons that this bill is important is because unfortunately 
the administration has previously made dramatic shifts in U.S. 
policy toward Cuba without consulting Congress beforehand.
    And so if we look at the arguments made by Deputy National 
Security Advisor Tony Blinken, he was in the process of being 
confirmed at the Deputy Secretary slot at the State Department 
in November 2014, he was asked whether any unilateral policy 
changes were under consideration with respect to Cuba. He 
assured Congress that anything that in the future might be done 
on Cuba would be done in full consultation. Now to emphasize 
that commitment he went on to say, with the real meaning of the 
word consultation.
    That is the thing that when I look back at this concerns me 
most about the lack of consultation with Congress. I am trying 
to protect the prerogatives here of Congress, the 
responsibility of Congress in this, because less than a month 
after that statement, without any consultation with me or any 
other Member that I know of, the administration announced the 
reestablishment of diplomatic relations and the release of 
convicted Cuban spies which apparently resulted from more than 
a year of secret negotiations with the regime, with the Castro 
regime.
    So the first point is we are not talking about that issue, 
we are now talking about Guantanamo Bay, but there are very 
real concerns. Enough concerns that this Congress also took the 
step in previously enacted legislation to prevent the return of 
the Guantanamo base to Cuba. Now that is going to expire this 
September. We adopted a full amendment offered by 
Representative Jolly to the military construction 
appropriations bill that prohibited funds from being used to 
close or to abandon Naval Station Guantanamo Bay. No member 
rose in opposition to that amendment and it was included in the 
final omnibus prohibiting any funds appropriated in 2016 from 
being used to close this strategically important U.S. base.
    So most Members have voted in favor of the concept, and I 
just wanted to lay out my thoughts on this. Other members 
seeking recognition? Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Chairman, I actually share a lot of the sentiments you 
have just expressed. I would not support any President 
unilaterally determining the fate of the Guantanamo Base 
without full debate and consultation with Congress and indeed 
with the approval of Congress.
    And so I am very sympathetic with the underlying concern 
expressed in this resolution, and I have joined my friend, 
Ileana Ros-Lehtinen, and my friend, Albio Sires, in being 
critical of the administration's rather abrupt change in policy 
and getting very little in return for it. The Washington Post 
has been critical of the policy along those lines, and I 
associate myself with that critique.
    I just would respectfully suggest that the resolution in 
front of us today, however, is designed to embarrass this 
President on the eve of a state visit to Cuba. We have one 
President and I, for one, am very tired of the gratuitous 
assaults on him, on his integrity, and on his policy.
    We could have reasonable disagreements, but for this 
committee to deliberately pass a resolution designed to 
embarrass him in his execution of foreign policy on behalf of 
the United States, I think is a mistake. I think it is 
misguided, I think it is partisan, and it is not really worthy 
of this committee.
    So although I am very sympathetic to the arguments and I 
certainly don't doubt the sincerity of the chairman, I think 
the timing is not designed, frankly, to promote more dialogue 
and more thought with respect to our bilateral relationships 
with Cuba, and I will reluctantly have to join the ranking 
member in opposing this resolution.
    Chairman Royce. I will recognize myself for a moment here 
and I will just point out there are no ad hominems in this bill 
in terms of the way the bill is crafted, in terms of the 
wording--specifically, it quotes, senior administration 
officials. And in terms of the intent, this is indeed not just 
about this administration. It is about future administrations 
too, as I explained in my opening argument, and it is in my 
view necessary given the role Congress has played in this.
    But to recognize other members, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. And frankly, 
I want to thank you for authoring this important legislation, 
H.R. 4678, particularly on the eve of the President's trip. 
Many of us have been deeply concerned about the President's 
trip and my good friend, Mr. Connolly, just mentioned the 
Washington Post which has done several, not one, but several 
editorials, very, very strong editorials including one that had 
the headline, ``Obama Gives the Castro Regime in Cuba an 
Undeserved Bailout.'' And they have repeatedly pointed out that 
it is not just that little has been gained, nothing has been 
gained. It has actually gotten worse on the human rights side.
    In 2014, there were approximately 5,000 to 6,000 arrests of 
dissidents. In 2015 that jumped to 8,000. And in the first 2 
months of this year, 2016, approximately 2,500 people have been 
arrested. So the trend line has been in the opposite direction 
of what perhaps the President had intended, and that calls for 
a serious recalibration if not a reversal of this policy of all 
give and absolutely no take. And what do we hope to get in 
return? Respect for fundamental human rights.
    I would point out to my colleagues that in addition to the 
concerns that Mr. Royce expresses in his bill, which I am very 
happy and thankful that I have been put on as a cosponsor, I 
have a hearing next week on Wednesday about getting it right on 
trafficking.
    Last year, and I have raised this repeatedly that the 
administration has been upgrading countries like China, like 
India, like Oman and like Cuba, when the TIP Office, the 
Trafficking in Persons Office, the Foreign Service Officers 
whose job it is to make the tough decisions about is this a 
Tier 3 country and egregious violator of sex and labor 
trafficking and then to assign that grade and to be honest 
about it, while Reuters did an investigation and found out that 
13 countries got artificially inflated grades and Cuba was one 
of them.
    If you read the TIP narrative in the Trafficking in Persons 
Report, it is absolutely clear on labor and sex trafficking 
that this is a Tier 3 country and yet they got an upgrade so 
that no sanctions will follow. I thought that was outrageous. 
Next Wednesday we will have a hearing talking about these 
inflated grades including and especially in Cuba.
    Let me also point out that we have called for the return of 
fugitives. JoAnne Chesimard killed a New Jersey policeman. 
Albio Sires speaks about it all the time very eloquently and 
passionately as do I, as do many in the State of New Jersey. 
Bob Menendez does it as well. Ileana Ros-Lehtinen laid out the 
concerns repeatedly about human rights, and Mr. Chairman you 
did it so very well as well.
    This legislation as you pointed out does not have ad 
hominems. It just makes it clear that this is an Article IV 
Section 3 issue about the Constitution granting to the 
Congress, not the President, the authority to dispose of and 
make all needful rules and regulations respecting the territory 
and other property belonging to the United States, and the 
Guantanamo lease agreements were instituted and concluded 
pursuant to an Act of Congress.
    Again, we want to send a clear message. This policy has 
been grotesquely misguided. We have enabled a dictatorship. And 
this is a dictatorship. I have tried for years to get a visa to 
go to Cuba because I want to go to the prisons. I went into 
Chinese prisons, Indonesian prisons, and even Perm Camp 35, the 
infamous prison in the Ural Mountains in the 1980s during the 
Communist dictatorship in the Soviet Union, and I can't even 
get into Cuba.
    So I hope--again, this is a very, very precautionary 
statement coming from our distinguished chairman and I am so 
grateful that he has offered it. I yield back.
    Chairman Royce. Any further members seeking recognition? 
Oh, Mr. Grayson.
    Mr. Grayson. Thank you. The Guantanamo Bay Naval Base was 
built in 1898 during the Spanish-American War and specifically 
during the U.S. military occupation of the entire island of 
Cuba. The agreement that was set gives the United States 45 
square miles of land in exchange for, first, $2,000 and later 
$4,000 a year in lease payments. Obviously, these days quite a 
bargain if one may say so.
    It is also true, I think it is fair to say, that the people 
of Cuba, leaving aside the Government of Cuba, the people of 
Cuba overwhelmingly want to see an end to the U.S. military 
occupation of the eastern side of the island. This is in my 
mind something that could possibly be well characterized as 
colonialism. It is true that it is buried in the depths of our 
history. It happened more than 100 years ago.
    But the fact remains that we are militarily occupying part 
of another country's land without the permission of those 
people. We don't do that anywhere else in the world. We don't 
say to a country we are going to take part of your land, we 
will occupy it. We will put a naval base or a military base 
there and to hell with all of you. We just don't do that 
anymore.
    Now I understand that people are very uncomfortable and 
understandably so with both the political and the human rights 
situation in Cuba. But I want to point out that in the same 
year that we signed a lease for this property, we also signed 
an agreement regarding the Panama Canal Zone. And we gave back 
the Panama Canal Zone in 1979 to an egregious military dictator 
who had oppressed his country for decades.
    So I suggest that we rethink our policy here. We understand 
that it is inappropriate for a great Nation like ours to seize 
land in another country and keep it and use it for any 
purposes, military or otherwise. And I think that with 3 
minutes left here I would like to yield my time to someone else 
here on this panel who is willing to try to explain why this 
isn't a simple case of colonialism so that we can try to get 
that dialogue started. Is there anyone else who wants to 
address that issue?
    No, okay. Then I yield the remainder of my time.
    Mr. Connolly. Would my friend yield for a question?
    I mean, our friends on the other side of the aisle have a 
resolution that is generated out of the concern that the 
President would, in fact, follow your advice unilaterally and 
end the U.S. control over Guantanamo.
    Putting aside the arguments of whether that is colonialism 
or whether that is a legacy we need to repudiate, surely my 
friend from Florida is not suggesting that on the eve of his 
visit to Cuba the President is secretly contemplating the 
handing over unilaterally of Guantanamo to the Government of 
Cuba. I would ask.
    Mr. Grayson. I am suggesting what I am suggesting which is 
that this is a policy that needs to be deeply rethought. That 
if the United States is guilty of an egregious sin called 
colonialism, this is something that we need to try to put 
behind us, not extend. It is not a question of process, my 
friend, it is a question of substance.
    Anyone else? All right, I yield the remainder of my time.
    Chairman Royce. You wish to----
    Mr. Ribble. Yes, I was just going to make one response, Mr. 
Chairman.
    Mr. Grayson. Oh. Well, then I will reclaim my time. Go 
ahead. I yield.
    Mr. Ribble. Thank you. We can view things as colonialism if 
that is the particular lens we would prefer to look it at. I 
would suggest that we might ask the folks in Port-au-Prince 
when our Navy was so close by, about 173 nautical miles, after 
a major earthquake hit there. And the lifesaving medical 
treatment, rescue treatment, and the compassionate expression 
of the American people through the close proximity to a 
horrible earthquake in the region was facilitated by the fact 
that the American Navy forces as well as their medical 
personnel were readily available to assist the region without 
having to wait days to get there. And I yield back.
    Mr. Grayson. I will reclaim my time. I just want to point 
out that there is a real danger in confusing compassion with 
guns. There is a danger with confusing aid with missiles. Too 
often we feel that we are, if I may say this, picking up the 
White man's burden in the same way that Rudyard Kipling talked 
about 100 years ago, and maybe it is time to put that part of 
our history behind us. I yield.
    Chairman Royce. We will go to Mr. Rohrabacher and then Mr. 
Sires. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. And I would like to 
identify myself with remarks of Mr. Smith, and Mr. Smith has 
detailed for us that the oppression goes on in Cuba. And 
interestingly enough, I would also like to identify myself with 
the remarks of Mr. Grayson.
    Let me just note, however, to Mr. Grayson, what he said was 
true about American colonialism, neocolonialism, however in 
making changes to government policy to make things, to right 
former wrongs timing is very important. Timing, timing, timing. 
This is not the time for us to move forward with what 
absolutely will be viewed as a retreat from our position that 
we took after the Castro brothers decided that they would, not 
decided but took control of Cuba and turned it into a Communist 
dictatorship.
    Yes, after--and Mr. Smith's remarks are taken into 
consideration--and let us say that Mr. Castro passes on to hell 
where he belongs, the fact is that then is the time that we can 
talk about changing the basic relationship. Just so people will 
know, Fidel Castro in the 1960s lobbied Nikita Khrushchev to 
launch nuclear missiles into the United States. Fidel Castro 
would have murdered 100 million Americans. We should not just 
ignore that.
    And since then, Cuba has been a bastion of tyranny, a home 
for terrorists and drug dealers. When Castro dies and his 
brother is thrown out of power, then we should move, and again 
maybe that would be a good time for us to close Guantanamo. 
Maybe that would be a good time for us.
    But right now there are no opposition political parties 
there. There are no rallies being held against Castro or 
anything else in that regime. The fact is that it is a hard 
core dictatorship, and our President I don't even think should 
be visiting that country because it is going to be viewed as, 
again, America retreating before this dictatorship and before 
our own standards, retreating from them.
    And I would also suggest closing Guantanamo would be seen 
and is seen throughout the world as a retreat before terrorists 
throughout the world. If we close Guantanamo now, the fact is 
every terrorist in the world will look at it as a victory for 
them over the United States. This will not encourage, will not 
create a better world, create a worse world.
    And although I agree with Mr. Grayson's fundamental 
analysis of the morality of the colonialism that started 
Guantanamo, this is not the time for us to be sending a message 
to terrorists or to dictatorships like the Castro brothers have 
in Cuba. So I thank the chairman, Mr. Royce, for bringing this 
up today to reaffirm Congress' commitment to that to democracy 
and to defeating terrorism.
    Mr. Connolly. Will my friend yield?
    Mr. Rohrabacher. I certainly will.
    Mr. Connolly. I thank my friend. To my surprise, I agree 
with most of what he said.
    Mr. Rohrabacher. A miracle has happened.
    Mr. Connolly. That is right. However, my objection and let 
us be--oh, well. It is my humble, respectful view that the 
timing of this resolution is designed to embarrass Obama. There 
is no evidence that Obama plans to do anything with respect to 
Guantanamo.
    Mr. Rohrabacher. So you are picking up on my timing, 
timing, timing.
    Mr. Connolly. Yes, I am.
    Mr. Rohrabacher. All right.
    Mr. Connolly. And that is my objection. But I think some of 
us anyhow will find common ground in a future date. I wish we 
weren't doing this now because it is frankly designed to 
embarrass President Obama, and there is no evidence he intends 
to do anything with respect to Guantanamo. We are manufacturing 
an issue where none exists. I respectfully yield back.
    Mr. Rohrabacher. I am reclaiming my time.
    Mr. Connolly. Yes.
    Mr. Rohrabacher. My time. And that is if it means sending a 
message to the President, and you are cataloguing that as 
embarrassing the President, I wouldn't catalog it as that. But 
if we are going to send a message to the President this is the 
time to do it. Thank you, I yield.
    Chairman Royce. Would the gentleman yield?
    Mr. Rohrabacher. I yield, yes.
    Chairman Royce. The administration has admitted that this 
demand from the Government of Cuba is going to be front and 
center in this negotiation. It has raised that issue. And from 
my standpoint what we are doing, if anything, is strengthening 
the administration's hand. What we are doing is simply stating 
again that this has to be with the consultation of the United 
States House of Representatives.
    Mr. Rohrabacher. There you go.
    Chairman Royce. It certainly strengthens our hand, I will 
tell you that. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. I wasn't going to speak 
on this issue, but listening to some of the arguments--I think 
this legislation is narrow, I think it is focused, and I think 
it is the right way to go with the Congress. I am supporting 
it.
    But this whole idea of colonialism and everything else, we 
might as well review our history and give the west part of this 
country back to Mexico. I mean, we are going to go back and 
back and back. Look, the reality is now, and all this 
legislation is doing is basically saying that the Congress 
should be taken into consideration when we make a decision 
whether to return Guantanamo or not. And that is how I see it, 
so I will be supporting this legislation. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you. We go now to Judge Ted Poe.
    Mr. Poe. I thank the chairman. When this lease was signed 
for the naval station, President Teddy Roosevelt specifically 
cited an Act of Congress that required the sale or lease by 
Cuba to the U.S. of lands necessary for naval stations, the 
President cited law for the authority to sign the lease. The 
law requires Congress to approve a change.
    Teddy Roosevelt, who was he? Well, he was one of those 
folks that liberated Cuba with the Rough Riders, military 
experience. He was Assistant Secretary of the Navy. And he 
thought as well as Congress that it would be a good idea for us 
to have a naval station out there in the Caribbean. If you get 
a map out, you don't have to be a military expert to figure 
out, hey, this is a great place for a naval station of the 
United States. Set aside the issue of Cuba being bad guys or 
good guys or whoever they are, it is good for the United 
States.
    Now my friend from Florida said, well, we gave away the 
Panama Canal when Jimmy Carter was President. Well, we did, but 
it took an Act of Congress. The United States Senate approved 
the giveaway of the Panama Canal. And all this legislation, 
this resolution is saying, Mr. President, we are kind of 
concerned about some of the things you have done in the past 
unilaterally without an Act of Congress supporting your 
actions. To make it sure that you don't give away the naval 
base, it takes an Act of Congress. This specific issue of the 
Guantanamo Naval Base takes an Act of Congress.
    And as the chairman has pointed out, the President is going 
to Cuba, he is going to talk to the Castros, and we want to 
make sure Congress is involved in any change if there is a 
change. And there may be a change. We may need a vote, may have 
a vote. The Senate may vote on it, something that sometimes the 
Senate doesn't vote.
    But right now this legislation, this resolution is 
excellent to let not just the President, but Americans and the 
world, know this is a naval base for the United States, it is 
going to stay that way until Congress says otherwise. That is 
all it does. It is very narrowly drawn, and I think it is an 
excellent resolution. It has nothing to do with embarrassing 
anybody. It has nothing to do with colonialism. It has to do 
with a naval base of the United States that takes an Act of 
Congress to give it away. And I will yield back.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. So first, with all due 
respect to one of my colleagues, I do not believe this a debate 
about colonialism. And I want to say for the record I do not 
admire or respect Fidel Castro. I wouldn't give him anything. 
But I want to associate myself with Mr. Engel's remarks. I 
agree with the sentiment of this resolution, but I believe it 
is unnecessary and I feel like it is a poke at the President. 
And it is sort of like saying, well, when did you stop beating 
your husband or your wife? Well, I was never beating my husband 
or my wife.
    So a President, our President, has no intention of 
modifying, abrogating, abandoning U.S. control over the U.S. 
naval station at Guantanamo, and I don't think we need this 
resolution. And I yield back.
    Chairman Royce. Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you 
bringing up this very important legislation, H.R. 4678, and I 
am pleased we are able to work together to shine a light on 
this important issue and the vital piece of our national 
security infrastructure.
    I have been working on preventing a unilateral action by 
this President to transfer Guantanamo Naval Base to the Castro 
regime for some time now, actually we started in December and 
we have over 70 cosponsors. And I am pleased we were able to 
come together and move forward with this legislation that will 
do just that.
    I am sure many people know it is currently illegal for the 
President to transfer detainees from the base to the United 
States, we are all in agreement with that. But the actual base 
itself can be transferred, as has been illustrated here, back 
to the Castro government without the consent of the U.S. 
Congress. As the only permanent U.S. military base in Latin 
America and the Caribbean, the naval station at Guantanamo base 
has been proven indispensable and useful time and time again.
    Past Secretaries of the Department of Defense have stated 
repeatedly through different administrations, Republicans and 
Democrats, that the Guantanamo Naval Base is vital to U.S. 
national security, therefore it is imperative that the United 
States Congress asserts its authority as defined in the 
Constitution over any transference of property from Guantanamo 
that may occur to appease the Castro brothers. And look at what 
the Castro brothers said. The Castro regime has stated they 
will not allow normalization of relationships with the U.S. 
unless we transfer the Guantanamo base back.
    Ranking Member Engel and my colleague, Mr. Connolly, both 
say the President does not intend to give this back, and if 
that is the case and if you thoroughly believe that let us go 
ahead and make this and codify this in law so future Presidents 
can't without Congress' consent. I just need to remind you when 
we were negotiating, when President Obama decided to normalize 
relationships with Cuba without Congress' consent they weren't 
going to negotiate with the Cuban spies, but then they released 
them. The Cuban Government confiscated all that property from 
American citizens, over $7.2 billion that they haven't been 
paid back on that.
    And the timing is critical. This is not to embarrass the 
President, this is about national security. This bill has been 
worked on for a period of time and this is to protect national 
security.
    And just a thought on colonialism, it was the United States 
of America that liberated the Cuban people from Spain. And so 
this is not an act of colonialism; that was an act of 
liberation. And I would like to correct that in the record and 
I yield back. Thank you.
    Mr. Grayson. Would you yield for a question?
    Mr. Yoho. Sure.
    Mr. Grayson. Do you think of Guantanamo Bay as some kind of 
tip?
    Mr. Yoho. Some kind of what?
    Mr. Grayson. Tip. Like a tip for liberating Cuba. We 
liberated Cuba, therefore we get Guantanamo Bay as a tip.
    Mr. Yoho. No, I think it was something that was negotiated 
for national security with our President back then that put 
national security first, as is enumerated in the Constitution.
    Mr. Grayson. Well, let me ask you a question about that. 
If, in fact, it is true as you and Judge Poe suggest that under 
existing law under the Constitution the President doesn't have 
the authority to change the status of Guantanamo Bay, why are 
we here? Why are we doing this? Isn't that admitting that this 
bill is superfluous?
    Mr. Yoho. No, because in the agreement it says he can 
through Executive action or if we vacate the property it goes 
automatically back to the Castro regime.
    Mr. Grayson. So it is true then. You are conceding that the 
President does have the authority to go ahead and do this 
unilaterally unless he signs a bill to change that.
    Mr. Yoho. If you look at the lease agreement it is vague in 
there, and we are just trying to clarify it so that there is no 
confusion not just with this administration but future 
administrations.
    And if the gentleman would consider if this does go back to 
Cuba, a naval base of the first, probably one of the most 
sophisticated ones in the Caribbean, who do you might think 
would occupy that? Would it be China, Russia, Iran? Maybe all 
three of them off the coast of Florida, a State you represent. 
Do you want to represent that to the people of your State, my 
State?
    Mr. Grayson. Well, I imagine that we would do--to answer 
the gentleman's question, we would do exactly what we did in 
Subic Bay and our other base in the Philippines which is that 
we would basically take it away with us and make it unusable 
for any other military force.
    But let me ask you this question. Is there anywhere else in 
the world where we have a military base against the will of the 
local populace? Anywhere else in the world?
    Mr. Yoho. This was an agreement--I can't answer that. What 
I want to do is I am focusing on the Western Hemisphere, 90 
miles off the coast of the United States of America, and I 
think this is a good bill that everybody should support. I 
yield back.
    Mr. Grayson. I will answer my question, which is no. Thank 
you.
    Chairman Royce. Are there any other members seeking 
recognition to speak on the bill? Hearing no further requests, 
the Chair now moves--oh, are there any amendments to the bill? 
Hearing none, we will go to the vote. This is on H.R. 4678.
    All in favor say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it and the 
measure is agreed to. Without objection, H.R. 4678 is ordered 
favorably reported and the staff is directed to make any 
technical and conforming changes, and the Chair is authorized 
to seek consideration under suspension of the rules.
    We now move on to our second measure. The Chair calls up 
House Resolution 343, expressing concern regarding persistent 
and credible reports of systematic state-sanctioned organ 
harvesting from nonconsenting prisoners of conscience in the 
People's Republic of China.
    Without objection, Ros-Lehtinen Amendment 34 in the nature 
of a substitute, which incorporates bipartisan amendments made 
at the Asia Subcommittee markup on January 12th is considered 
base text, is considered read and is open for amendment at any 
point.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      

    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any member 
seeking recognition to speak.
    As we consider House Resolution 343, I want to thank 
Chairman Emeritus Ros-Lehtinen for authoring this important 
measure. Since 1999, Falun Gong practitioners have been one of 
the most persecuted social groups in China. The practice of 
organ transplants in China is of deep concern to members of 
this committee especially in light of recent reports of the 
severe and brutal crackdown on religious freedom more broadly.
    This resolution condemns the practice of forced organ 
harvesting, it encourages U.S. medical professionals to educate 
their patients about the dangers of transplant tourism, and it 
calls on the State Department to include a more thorough 
analysis on organ harvesting in its current human rights 
reporting.
    The amendment text we consider today largely reflects the 
changes made by the Asia and the Pacific Subcommittee, and so I 
want to thank subcommittee Chairman Salmon as well as 
Representatives Connolly and Sherman for their contributions. 
And I should also note that Congressmen Trott and Deutch are 
leading a bipartisan committee effort to fight unethical organ 
transplants globally, legislation that we will take up soon.
    I now recognize the ranking member, Mr. Engel, for his 
opening remarks.
    Mr. Engel. Thank you, Mr. Chairman. I am happy to support 
Ms. Ros-Lehtinen's measure expressing our concern over truly 
unsettling reports of state-sanctioned organ harvesting in the 
People's Republic of China. It is especially troubling that 
this practice allegedly targets prisoners of conscience 
including practitioners of Falun Gong and other religious and 
ethnic minorities.
    Organ transplants are one of the wonders of modern 
medicine. These procedures save lives every single day. But 
nonconsensual organ harvesting represents a gross violation of 
human rights. And if this horrible abuse weren't enough, we 
hear of victims targeted because of their religious beliefs, 
and of Chinese prison camps reaping a profit by trafficking 
these organs. This is something out of a horror story. We need 
more data and more evidence on these reported practices.
    This resolution calls on the Chinese Government to allow an 
investigation into this issue and urges the State Department to 
include an analysis of state-sanctioned nonconsensual organ 
harvesting in the annual human rights report. This is a good 
measure. I commend Ms. Ros-Lehtinen for bringing this to the 
forefront, and I urge all of us to support it. And I yield 
back.
    Chairman Royce. We go to Ileana Ros-Lehtinen of Florida, 
the author.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you, Ranking Member Engel. And I am proud to have introduced H. 
Res. 343 with my dear friend, Gerry Connolly, who has been a 
good partner throughout my years here.
    And it is a resolution as you pointed out, Mr. Chairman and 
Ranking Member, which condemns China's ongoing, gruesome 
practice of harvesting organs from the followers of Falun Gong. 
The Communist regime in China systematically represses and 
persecutes these peaceful individuals. They are forcing them 
into illegal detention facilities and labor camps so that they 
are silenced and their organs can be harvested for sale on the 
black market.
    The Chinese regime's brutal repression and human rights 
violations are well known, but this especially horrific 
treatment of the Falun Gong does not receive the attention that 
it merits. Freedom House reports that last year, Falun Gong 
adherents made up China's largest number of prisoners of 
conscience and were at particular risk of being killed while in 
custody.
    I was extremely disappointed to see that our State 
Department's latest human rights report on China quoted a 
Chinese official's unsubstantiated and dubious claim that any 
harvesting of organs from prisoners would now be voluntary. It 
does the Falun Gong and prisoners of conscience the world over 
a disservice if our State Department continues to whitewash 
China's human rights violations because it is not a problem 
that is going away simply by ignoring it.
    China's ghoulish organ harvesting has not stopped, and when 
official Chinese transplant statistics do not match up to the 
facts on the ground, including witnesses' accounts and the 
dramatic increases in the hiring of transplant teams, we must 
see the regime's claims for the lies and the propaganda that 
they indeed are.
    By passing this resolution we can send a message to the 
Chinese regime, the U.S. medical community, and our State 
Department that we condemn China's organ harvesting. We know 
that it is still going on and we must do more to end this 
practice immediately. We cannot allow these crimes to continue. 
I urge my colleagues to support this measure.
    And thank you again, Mr. Chairman and Ranking Member Engel, 
for your support, and Mr. Connolly as well. Thank you, sir.
    Chairman Royce. Thank you very much, Ms. Ros-Lehtinen. Mr. 
Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I echo all of the 
sentiments of my friend, Ms. Ros-Lehtinen, and thank her for 
her leadership on this issue. This is an abhorrent practice. It 
cannot be tolerated in civilized society and it is perfectly 
proper for this committee to call it out. I thank my friend for 
her leadership. And Mr. Chairman and Mr. Engel, I thank you 
both for your leadership in bringing this up.
    Chairman Royce. Are there any further members? Mr. Smith.
    Mr. Smith. Chairman, thank you. First of all, I want to 
thank Ileana Ros-Lehtinen for this very important resolution, 
and Mr. Connolly as well. I strongly believe that this 
resolution is an important step in bringing a measure of 
accountability and transparency to what may be one of the great 
crimes of the 21st century, the 17-year-old effort to eradicate 
Falun Gong from China.
    I strongly believe that the campaign to eradicate Falun 
Gong will be seen as a great shame of this Chinese Communist 
Party which has done terrible misdeeds in torture and killings 
since Mao Zedong. The Chinese Government continues to insist 
that credible accounts of torture, sexual crimes, and arbitrary 
detention of Falun Gong practitioners are mere rumors. The 
evidence, however, tells a far different story and an inhumane 
story.
    The resolution gives voice to those who cannot speak, to 
those who have suffered unspeakable torture and survived, and 
to the families who have lost loved ones. I would point out to 
my colleagues that researchers David Kilgour, David Matas, and 
Ethan Gutmann conducted detailed investigations and estimated 
that between 45,000 and 65,000 Falun Gong practitioners were 
killed for their organs which were then sold for profit. I have 
read those accounts and they are chilling. Those estimates may 
now be much higher according to the forthcoming report by those 
three researchers.
    The Department of State and international medical community 
must do a detailed analysis immediately and studies need to be 
done on those claims and there needs to be a protest lodged by 
our Government at the very minimal to protest these horrific 
abuses. Chinese officials and its medical community must 
understand that there are consequences for the arbitrary 
detention, torture, and psychiatric experimentation and organ 
harvesting imposed on Falun Gong practitioners. These practices 
should be condemned by the world community. This is an 
important resolution in that regard. I yield back.
    Chairman Royce. Any other members seeking recognition? Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and I thank the 
authors of the bill as well for bringing up this issue. And I 
have been very engaged in this issue for a number of years. And 
we have had numerous testimony given at numerous hearings and 
testimony provided us, so unless we are intentionally turning 
our heads away it is clear that this massive violation of human 
rights is taking place in China and we have unfortunately as a 
people turned our heads away in order not to see this evil. And 
this resolution will make sure that we put everybody on notice 
that this is not going to be ignored anymore and that the 
American people are going to be informed that in fact we have 
developed a trading relationship with the world's worst human 
rights abuser.
    And let me put that very clearly. More people, their human 
rights are violated in China than anywhere else in the world, 
and nowhere is that more symbolic than we have the Falun Gong, 
which is a group of people who are joined together and united 
by a philosophy that is based on peace and justice and truth. 
And they believe in yoga and meditation, they are a threat to 
no one, and yet they are being slaughtered in the secret jail 
cells throughout China. And what comes out of it, out of those 
jail cells, organs that are sent to various places in the 
world.
    And let me note this. We need to be committed not only to 
stopping this practice, but we need to make sure that people 
who are on the receiving end of these organs that we deal with 
that as well, because I believe that these organs are being 
sold in the United States. And that is wrong for us to close 
our eyes to that permitting, our doctors to buy a kidney from 
some prisoner in China who happens to be a Falun Gong. It is 
wrong for us to permit a doctor here to transplant that organ 
because that is us participating in a crime, and a horrific 
crime that shouldn't be excused.
    So let us note that in China, as in Cuba as we just 
mentioned, there are no newspapers to expose this. There are no 
rallies that people are permitted to have and no opposition 
parties that can bring up this issue and say this isn't the 
policy we should have. The only hope for a change in China is 
if we, here, make tough stands on these moral issues. And in 
that there are people, our best allies in trying to bring 
change are the people of China themselves.
    And by passing resolutions like this, we are proclaiming to 
the good people of China that we are on their side and that we 
too would condemn this type of horrific activity that does not 
reflect the moral standards of the people of China or the 
people of the United States or decent people anywhere in the 
world.
    So thank you very much, Mr. Chairman, for bringing this up. 
Thank you to the authors of the bill. Of course, I will be 
supporting it.
    Mr. Sherman. Mr. Chairman?
    Chairman Royce. Does the gentleman yield to----
    Mr. Rohrabacher. No, I am done.
    Chairman Royce. Okay. Then we are going to go to Mr. Brad 
Sherman of Los Angeles.
    Mr. Sherman. It is time for this Congress to pass a strong 
and credible resolution condemning China for its oppression of 
various religions, but especially Falun Gong, to condemn China 
for wrongful executions, and to condemn China for harvesting 
organs without the permission of the executed prisoner. Not 
that that prisoner would be in that free of position to decide 
for themselves.
    Of those, the organ harvesting is by far the most 
inflammatory, but frankly, I think, less significant than the 
other two. When you arrest thousands of people for their 
religious beliefs, when you execute people wrongfully, to me 
that is perhaps a less gruesome but a greater crime.
    This is where I want to thank the chairman, our prior 
chairman Ileana Ros-Lehtinen, Matt Salmon who serves as chair 
of the Asia Subcommittee, for working with me to, I think, 
improve this resolution to keep it very strong and to make sure 
that it is the strongest and most credible resolution that we 
could pass.
    There are those who say not only does China engage in 
wrongful executions and organ harvesting, but that nearly 
100,000 people have been wrongfully executed. I believe the 
figure that has been used is 70,000. And that particular figure 
has not been established convincingly to the human rights 
organizations that I have the greatest respect for both 
nationally and internationally.
    And so if we were to cite that particular number without 
having substantial evidence behind it, I think it would weaken 
the resolution. That is why in subcommittee Matt Salmon and I 
worked to improve this resolution to make sure it is strong, to 
make sure it cannot be attacked because it has one number in it 
that cannot be proven.
    Now the fact that it cannot be proven to be true or even 
established by a very high level of credibility to be true, 
does not mean that it is not true. It simply means that China 
is a closed society, as Mr. Rohrabacher points out, and that 
the evidence is simply not available to us.
    So a resolution that focuses on the wrongful executions, on 
the oppression of those who are people of faith, and the fact 
that in addition to wrongful executions there can be wrongful 
organ harvesting, I think is the most credible and strongest 
resolution we could pass, and I yield back.
    Chairman Royce. We go now to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I am going to be very 
brief. I want to, first of all, apologize for being a little 
late for this. We had a markup in Judiciary going on at the 
same time. And I want to apologize in advance for leaving right 
after I get done speaking here because I have to chair the 
Small Business Committee at exactly 11 o'clock.
    So on H.R. 4678, having been to Guantanamo Bay on three 
separate occasions myself, I am strongly in support of this for 
reasons I am sure many of my colleagues have already voiced so 
I won't repeat them.
    And on H. Res. 343, I agree totally with my colleague, Mr. 
Rohrabacher from California, on the importance of passing this, 
the barbaric outrage that the PRC has committed against its own 
people. I think all of us have probably had Falun Gong members 
in our office, and they literally have literature and books 
showing the torture and the horrific treatment that they have 
gotten at the hands of the Chinese Government is outrageous.
    So I very much support both pieces of legislation. I 
commend the chair for his leadership on these issues, and I 
yield back the balance of my time.
    Chairman Royce. Hearing no further requests for 
recognition, are there any additional amendments? Hearing none, 
the Chair now moves that the committee agree to House 
Resolution 343 as amended.
    All in favor say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it and the 
measure is agreed to. And without objection, the measure is 
ordered favorably reported in the form of a single amendment in 
the nature of a substitute incorporating the amendments adopted 
here today, and the staff is directed to make any technical and 
conforming changes. And also without objection, the Chair is 
authorized to seek House consideration of House Resolution 343 
under suspension of the rules.
    And that concludes our business for today. I want to thank 
our ranking member, Mr. Engel, and all of our committee members 
for their contributions and assistance with today's markup. The 
committee stands adjourned.
    [Whereupon, at 11:01 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
         

 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
